HHS/OIG, Audit - "Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Cross Blue Shield of Minnesota," (A-07-01-03001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Pension Plan at a Terminated Medicare Contractor, Blue Cross Blue Shield of Minnesota," (A-07-01-03001)
January 30, 2003
Complete Text of Report is available in PDF format
(570 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of Minnesota (BCBSM) served as a Medicare contractor
until their contract was terminated in July 1999.  Federal regulations
and Medicare contract provisions require pension gains, which occur when a Medicare
segment of a contractor's pension plan closes, be credited to the Medicare program.
We identified $2.0 million in excess Medicare pension assets at BCBSM at the
time of contract termination.  Our methodology and calculations were reviewed
by the Centers for Medicare and Medicaid Services' pension actuarial staff.
We are recommending that BCBSM refund the $2.0 million to the Medicare program.